                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11   Case Number: A09060052
                                                                                       11           Page 1 of 1



             A proactive review of proposals for plagiarism resulted in an allegation within a proposal1submitted
             to NSF by a universit3. Upon further review, we found that while the copied text was cited, it was
             neither in quotation marks or otherwise distinguished from the rest of the text of the proposal. A
             letter addressing the improper citation practices was sent to the PI^ and CO-p1s4,and no fiuther action
             will be taken.

             Accordingly, this case is closed.




                          /




              iw
              4




     NSF OIG Form 2 (11/02)
